No. 20-72

In the Supreme Court of the United States
JANET HIMSEL, ET AL.
Petitioner,
v.
4/9 LIVESTOCK, LLC, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for Non-Governmental Respondents and a
member of the Bar of this Court, hereby certify that on this 25th day of August, 2020,
I caused a copy of the Brief of the Non-Governmental Respondents in Opposition to
be served by email upon:
Katherine Anne Meyer
Harvard Animal Law and Policy Clinic
1607 Massachusetts Ave.
Cambridge, MA 02138
(617) 998-2450
kmeyer@law.harvard.edu

Jessica Leigh Culpepper
Public Justice
1620 L Street NW, Suite 630
Washington, DC 20036
(202) 746-4958
jculpepper@publicjustice.net

Attorney for Petitioners

Attorney for Amicus Indiana Farmers
Union, et al.

Thomas M. Fisher
Solicitor General
Office of the Attorney General
IGC South, fifth Floor
302 W. Washington St.
Indianapolis, IN 46204
(317) 232-6255
Tom.Fisher@atg.in.gov
Attorney for State of Indiana

I further certify that all parties required to be served have been served.

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

